Report No. D-2011-076               June 23, 2011




       American Recovery and Reinvestment Act--
    Department of the Navy Near Term Energy-Efficient
                  Technologies Projects
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
AFMC 
                        Air Force Materiel Command
ASN (FM&C) 
                  Assistant Secretary of the Navy (Financial Management
                              and Comptroller)
BAA       
                   Broad Agency Announcement
BOA       
                   Basic Ordering Agreement
BPA      
                    Blanket Purchase Agreement
DLA      
                    Defense Logistics Agency
DON 
                         Department of the Navy
FAR      
                    Federal Acquisition Regulation
FBO      
                    Federal Business Opportunities
FPDS 
                        Federal Procurement Data System
FSRM
                         Facilities Sustainment, Restoration, and Modernization
HQMC         
                Headquarters, Marine Corps
HVAC        
                 Heating, Ventilating, and Air-Conditioning
MARCORSYSCOM
                 Marine Corps Systems Command
NAVAIR
                       Naval Air Systems Command
NAVFAC 
                      Naval Facilities Engineering Command
NAVSEA 
                      Naval Sea Systems Command
NAWCAD         
              Naval Air Warfare Center, Aircraft Division-Lakehurst
NAWCWD          
             Naval Air Warfare Center Weapons Division
NSWCCD/HQ 
                   Naval Surface Warfare Center, Carderock Division-
                              Headquarters
NSWCCD/SSES 
                 Naval Surface Warfare Center, Carderock Division-Ships
                              System Engineering Station
NTEET   Near Term Energy-Efficient Technologies
OMB     Office of Management and Budget
ONR     Office of Naval Research
OTEC    Ocean Thermal Energy Conversion
RDT&E   Research, Development, Testing, and Evaluation
RFP     Request for Proposal
RFQ     Request for Quote
USACE   U.S. Army Corps of Engineers
THIS PAGE INTENTIONALLY LEFT BLANK 

                                  IN SPECTOR GENERAL
                                 DEPARTMENT OF DEFENSE 

                                   400 ARMY NAVY DRIVE 

                              ARLINGTON , VIRGINIA 22202-4704 


                                                                             Junc 23,20 II

MEMORANDUM FOR DISTRIBUTION

SUBJECT: American Recovcry and Reinvestment Act-Dcpartment of the Navy Near
         Term Encrgy-Efficient Technologics Projects (Report No. D-20 11-076)

We are providing this report for review and comment. The Navy propcrly justified and
adequately planned and tililded the Il Near Term Energy-Efficicnt Technologies
(NTEET) projects wc rcviewed . However, the Navy, Marine Corps, and Air Force could
have improved NTEET project contracting and transparency.

We considered management comments on a draft of this report from various Navy,
Marine Corps, and Air Force offices and commands including (but not limited to) the
Assistant Secretary of the Navy (Research, Devclopment, and Acqui sition); the
Marine Corps Systems Command; and the Air Force Materiel COlllmand.

DoD Directive 7650.3 requires that recommendations be resolved promptly. As a result
of management comments, we deleted draft Recommendations 2, 4, and 7.a. We
renumbered draft Recommendation 3 as Recommendation 2. We also renumbered draft
Recommendation 5 as Recommendation 3 imd revised and renumbered draft
Recolllmendation 6 as Recommendation 4. Further, we revised and renumbered draft
Recommendation 7.b as Recommendation 5. The Navy and Marine Corps comments to
final report recommendations were responsive, and no further comments arc required .
Air Force comments to final Recommendation 5 were partially responsive. We modi tied
the recommendation and request that the Air Force provide thrther comments by
July 25, 2011.

If possible, send a .pdffile containing your comments to audacm@dodig.mil. Copies of
your comments must have the actual signature of the authori zi ng official for your
organization. We are unable to accept the /Signed/ symbol in place of the actual
signature. If you arrange to send classi tied comments electronically, you must send them
over the SECRET Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-9071 (DSN 664-9071).



                                            ~;/~/P:Ir/
                                             Deputy Assistant Inspector General
                                             Acquisition and Contract Management
DISTRIBUTION:

UNDER SECRETARY OF DEFENSE (COMPTROLLER)/CHIEF FINANCIAL
  OFFICER
DIRECTOR, DEFENSE RESEARCH AND ENGINEERING
ASSISTANT SECRETARY OF THE NAVY (FINANCIAL MANAGEMENT AND
  COMPTROLLER)
ASSISTANT SECRETARY OF THE NAVY (RESEARCH, DEVELOPMENT, AND
  ACQUISITION)
ASSISTANT SECRETARY OF THE AIR FORCE (FINANCIAL MANAGEMENT
  AND COMPTROLLER)
DIRECTOR, DEFENSE LOGISTICS AGENCY
NAVAL INSPECTOR GENERAL
COMMANDER, NAVAL AIR SYSTEMS COMMAND
COMMANDER, NAVAL SURFACE WARFARE CENTER, CARDEROCK
  DIVISION–HEADQUARTERS
COMMANDER, NAVAL SURFACE WARFARE CENTER, CARDEROCK
  DIVISION–SHIPS SYSTEMS ENGINEERING STATION
COMMANDER, MARINE CORPS SYSTEMS COMMAND
COMMANDER, AIR FORCE MATERIEL COMMAND
Report No. D-2011-076 (Project No. D2009-D000AB-0170.002)                           June 23, 2011

               Results in Brief: American Recovery and
               Reinvestment Act—Department of the Navy
               Near Term Energy-Efficient Technologies
               Projects
What We Did                                              be performed in the presolicitations or award
                                                         notices posted on FBO because contracting
We reviewed the planning, funding, and initial
                                                         officials modified previously negotiated non-
execution (contracting) of 11 Department of the
                                                         Recovery Act contract actions and were unaware
Navy (DON) Near Term Energy-Efficient
                                                         that Recovery Act funds required the clauses. As
Technologies (NTEET) program research and
                                                         a result, transparency was not achieved.
development projects, to determine whether
contracting efforts complied with Recovery Act           What We Recommend
requirements, other Federal requirements, and
                                                         We recommend that the Assistant Secretary of the
DoD implementing guidance. As of July 31,
                                                         Navy (Research, Development, and Acquisition)
2010, the Navy, Marine Corps, Air Force, and
                                                         direct contracting offices to properly post
Defense Logistics Agency awarded 35 contract
                                                         presolicitation and award notices. We also
actions for the 11 Navy projects, valued at
                                                         recommend that the Navy, Marine Corps, and the
$55.5 million of the $72.9 million available
                                                         Air Force modify contract actions to include
NTEET program Recovery Act funds. Eight
                                                         appropriate Recovery Act FAR clauses, report all
contract actions were new contracts, 9 were orders
                                                         Recovery Act actions to the required public Web
placed against existing contracts, and the
                                                         sites, and modify presolicitation notifications to
remaining 18 were modifications to existing
                                                         include appropriate descriptions of work to be
contracts.
                                                         performed.
What We Found                                            Management Comments and
The DON properly justified and adequately
planned and funded the 11 NTEET projects.
                                                         Our Response
However, the Navy, Marine Corps, and Air Force           The Navy comments regarding properly posting
could have improved initial execution by:                presolicitation and award notices were partially
     properly posting presolicitation or award          responsive. As no future Navy NTEET
       notices for 8 contract actions on Federal         contracting actions appear likely, we see no
       Business Opportunities (FBO) Web site,            benefit to pursuing further Navy comments. Other
     including at least one missing Federal             Navy and Marine Corps comments were
       Acquisition Regulation (FAR) Recovery             responsive to the final report recommendations.
       Act contract clause in 8 contract actions,        We request that the Air Force provide additional
       and                                               comments by July 25, 2011, regarding an open
     describing the work to be performed in             recommendation to modify contract actions to
       public notifications for 2 contract actions       include appropriate Recovery Act FAR clauses.
       on FBO Web site.                                  As a result of management comments, we deleted
                                                         three draft report recommendations, renumbered
The Navy, Marine Corps, and Air Force did not            two draft report recommendations, and revised
post presolicitations or award notices, include          and renumbered two other draft report
required FAR Recovery Act clauses in the                 recommendations. Please see the
contract actions, or properly describe the work to       recommendations table on the back of this page.

                                                     i
Report No. D-2011-076 (Project No. D2009-D000AB-0170.002)               June 23, 2011

Recommendations Table

       Management                  Recommendations                No Additional
                                  Requiring Comment             Comments Required
Assistant Secretary of the                                  1
Navy (Research,
Development, and
Acquisition)
Commander, Naval Air                                        2
Warfare Center, Aircraft
Division
Commander, Naval Surface                                    3
Warfare Center, Carderock
Division-Ships System
Engineering Station
Commander, Marine Corps                                     4
Systems Command
Commander, Air Force          5
Materiel Command

Please provide comments by July 25, 2011.




                                            ii
Table of Contents

Introduction	                                                              1     


      Objective                                                            1     

      Recovery Act Background                                              1

      Recovery Act Requirements                                            1

      Recovery Act and Other Federal Contracting Requirements              2

      OMB Recovery Act Guidance                                            3

      DoD Recovery Act Program Plans                                       3

      Review of Internal Controls                                          5


Finding. DON NTEET Program Implementation	                                 7


      Projects Were Properly Planned                                       7

      DON Promptly Distributed NTEET Program Funding                       7

      DON NTEET Contract Actions Were Generally Competed                   8

      Use of Multiple Contract Types                                       9

      DON Needs to Improve Transparency of NTEET Contracting               9

      Conclusion                                                          11     

      Management Comments on the Report                                   12 

      Recommendations, Management Comments, and Our Response              12 


Appendices

      A. 	Scope and Methodology                                           17 

             Use of Computer-Processed Data                               18 

             Prior Coverage                                               18     

      B. Recovery Act Criteria and Guidance 	                             19 

      C. 	DoD Near Term Energy-Efficient Technologies Program Funding 

             and Functional Areas                                         21 

      D. 	Description and Status of DON Near Term Energy-Efficient 

             Technologies Projects                                        23 

      E. Management Comments on the Report and Our Response 	             27 

      F. DON Near Term Energy-Efficient Technologies Contracts       	    29 


Management Comments

      Department of the Navy                                              34 

      Department of the Air Force                                         47 

THIS PAGE INTENTIONALLY LEFT BLANK 

Introduction
Objective
The primary objective of the audit was to determine whether DoD and its Components
were planning and implementing the American Recovery and Reinvestment Act of 2009
(Recovery Act) by meeting the requirements in the Recovery Act; Office of Management
and Budget (OMB) Memorandum M-09-10, “Initial Implementing Guidance for the
American Recovery and Reinvestment Act of 2009,” February 18, 2009; and subsequent
related guidance. For this audit, we reviewed the planning, funding, and initial execution
(contracting) of 11 Near Term Energy-Efficient Technologies (NTEET) program
research and development projects, to determine whether Department of the Navy (DON)
efforts complied with Recovery Act requirements, OMB guidance, the Federal
Acquisition Regulation (FAR), and DoD implementing guidance. See Appendix A for a
discussion of our scope and methodology.

Recovery Act Background
The President signed the Recovery Act into law on February 17, 2009. It was an
unprecedented effort to jump-start the economy and create or save jobs.

       The purposes of this Act include the following:
              (1) To preserve and create jobs and promote economic recovery.
              (2) To assist those most impacted by the recession.
              (3) To provide investments needed to increase economic efficiency by spurring technological
                  advances in science and health.
              (4) To invest in transportation, environmental protection, and other infrastructure that will
                  provide long-term economic benefits.
              (5) To stabilize State and local government budgets, in order to minimize and avoid
                  reductions in essential services and counterproductive state and local tax increases.
                  .        .         .        .        .        .         .
       . . . the heads of Federal departments and agencies shall manage and expend the funds made
       available in this Act so as to achieve the purposes specified . . . including commencing
       expenditures and activities as quickly as possible consistent with prudent management.

Recovery Act Requirements
The Recovery Act and implementing OMB guidance require projects to be monitored and
reviewed. We grouped these requirements into the following four phases: (1) planning,
(2) funding, (3) initial execution, and (4) tracking and reporting. The Recovery Act
requires that projects be properly planned to ensure the appropriate use of funds. Review
of the funding phase is to ensure the funds were distributed in a prompt, fair, and
reasonable manner. Review of the initial execution phase is to ensure that contract
actions awarded with Recovery Act funds were transparent, competed, and contained
specific FAR clauses; that Recovery Act funds were used for authorized purposes; and
that instances of fraud, waste, error, and abuse were mitigated. Review of the execution
phase also ensures that program goals were achieved, including specific program
outcomes and improved results on broader economic indicators; and that projects funded
avoided unnecessary delays and cost overruns. Review of the tracking and reporting


                                                   1

phase ensures that the recipients’ use of funds was transparent to the public and that
benefits of the funds were clearly, accurately, and timely reported.

Recovery Act and Other Federal Contracting
Requirements
The Recovery Act establishes transparency and accountability requirements. Federal
Acquisition Circular 2005-32, March 31, 2009, provides policies and procedures for the
Government-wide implementation of the Recovery Act and guidance on special contract
provisions. Federal Acquisition Circular 2005-32 amended the FAR and provided
interim rules that made FAR solicitation provisions and contract clauses immediately
available for inclusion in contracts for Recovery Act work.

The specific FAR Recovery Act requirements are for:

       buying American construction material,*
       protecting contractor whistleblowers,
       publicizing contract actions,
       reporting, and
       giving the Government Accountability Office and agency Inspectors General
        access to contracting records.

Federal Government organizations meet requirements for Recovery Act contract actions
by posting information on the Federal Business Opportunities (FBO) and Federal
Procurement Data System (FPDS) Web sites. FAR Subpart 5.7, “Publicizing
Requirements Under the American Recovery and Reinvestment Act of 2009,” directs
contracting officers to use the Government-wide FBO Web site (http://www.fbo.gov) to:

       identify the action as funded by the Recovery Act,
       post pre-award notices for orders exceeding $25,000,
       describe supplies in a clear narrative to the general public, and
       provide the rationale for awarding any contracting actions that were not both
        fixed-price and competitive.

FBO is the Federal Government’s central source of Federal procurement opportunities.
FBO is a Web-based portal that allows agency officials to post Federal procurement
opportunities and contractors to search and review those opportunities. Agencies also
post contract award notices on FBO. In addition, to provide transparency, FBO has a
separate section identifying Recovery Act opportunities and awards.

FPDS is the Federal Government’s central source of procurement information.
Contracting officers enter information, to include the Treasury Account Symbol, in the


*
 FAR 25.6, “American Recovery and Reinvestment Act–Buy American Act–Construction Materials,” is
not applicable to DON Recovery Act NTEET projects because these projects are research and
development, not construction.


                                                2

FPDS for all Recovery Act contract actions. The Treasury Account Symbol enables
FPDS to provide transparency by generating and posting a report containing all Recovery
Act contract actions.

OMB Memorandum M-09-15, “Updated Implementing Guidance for the American
Recovery and Reinvestment Act of 2009,” April 3, 2009, requires specific posting
requirements for modifications as well as orders under task and delivery order contracts.
On April 21, 2009, the office of Defense Procurement and Acquisition Policy (DPAP)
issued updated Recovery Act contracting instructions requiring contracting offices to post
presolicitation and award notices for modifications or orders under existing contracts. On
March 19, 2010, DPAP further revised the guidance to rescind the presolicitation
requirement as it related to contract modifications to existing contracts.

FAR 5.704, “Publicizing-preaward,” directs users to FAR 5.201, which states that for
acquisitions of supplies and services, the contracting officer must post a notice to the
Government Point of Entry system for modifications to an existing contract. However,
this section of the FAR was amended in July 2010 to exclude modifications from the
presolicitation FBO posting requirement.

FAR Part 6, “Competition Requirements,” describes the steps necessary to keep
competition full and open to all sources. FAR Part 6 includes Section 6.1, “Full and
Open Competition” and Section 6.2, “Full and Open Competition After Exclusion of
Sources.” Section 6.2 allows an agency to exclude a particular source when doing so
would ultimately benefit the agency more than if competition were full and open. FAR
6.302, “Other Than Full and Open Competition,” allows for sole-source contracting when
“only one responsible source and no other supplies or services will satisfy agency
requirements.”

OMB Recovery Act Guidance
Criteria for planning and implementing the Recovery Act continue to change as OMB
issues additional guidance and DoD and the Components issue their implementation
guidance. OMB has issued 11 memoranda and 1 bulletin to address the implementation
of the Recovery Act. See Appendix B for Recovery Act criteria and guidance.

DoD Recovery Act Program Plans
Under the Recovery Act, Congress appropriated approximately $12 billion to DoD for
the following programs: Energy Conservation Investment; Facilities Sustainment,
Restoration, and Modernization (FSRM); Homeowners Assistance; Military
Construction; NTEET; and U.S. Army Corps of Engineers (USACE) Civil Works.




                                            3

     Table 1. DoD Agency-Wide and Program-Specific Recovery Act Programs
                            Program                          Amount
                                                           (in millions)
    Energy Conservation Investment                             $120
    Facilities Sustainment, Restoration, and Modernization    4,260*
    Homeowners Assistance                                       555
    Military Construction                                     2,185
    Near Term Energy-Efficient Technologies                     300
    U.S. Army Corps of Engineers Civil Works                  4,600
       Total                                               $12,020*
*On August 10, 2010, Public Law 111-226, Title III, “Rescissions,” rescinded $260.5 million of funds from
DoD Operations and Maintenance Accounts and Defense Health Program Account supporting the
Recovery Act. This reduced the DoD Recovery Act FSRM amounts to approximately $4 billion and total
DoD Agency-wide and Program-Specific Recovery Act program funding to approximately $11.76 billion.

The Recovery Act divides the approximately $12 billion among 32 DoD and USACE line
items of appropriations.

DoD NTEET Program Planning
Under the Recovery Act, Congress appropriated $300 million for DoD Research,
Development, Test, and Evaluation (RDT&E) in four accounts of $75 million each for
Army, Navy, Air Force, and Defense-wide NTEET Recovery Act projects. Each Military
Department and Defense agency submitted RDT&E candidate projects for review in five
broad areas:

       fuel optimization for mobility platforms,
       facility energy initiatives,
       operational efficiencies and commercial practices,
       domestic energy supply and distribution, and
       tactical power systems and generators.

See Appendix C for a further description of each of these five program areas.

Research and Development Contracting
The primary purpose of contracted research and development programs is to advance
scientific and technical knowledge and apply that knowledge to achieve agency and
national goals. Unlike contracts for other services and supplies, most research and
development contracts contain objectives for which the work or method cannot be
precisely described in advance. Although the Government prefers to use fixed-price
contracts, they do not usually apply to research and development contracting, where
specifications and cost estimates are usually not precise enough to permit a fixed-price
preference. Therefore, the DoD NTEET Program Plan, May 15, 2009, forecasted a
smaller percentage of fixed-price contract actions for anticipated Recovery Act NTEET
program projects than for other Recovery Act project categories.


                                                   4

FAR Part 35, “Research and Development Contracting,” states that the broad agency 

announcement (BAA) is used by agencies to fulfill their requirements for scientific study 

and experimentation directed toward advancing the state of the art or increasing 

knowledge or understanding rather than focusing on a specific system or hardware 

solution. A BAA is used when proposals with varying technical or scientific approaches 

can be reasonably anticipated. A BAA describes the agency’s research interest in an 

individual program requirement or in broadly defined areas of interest covering the full 

range of an agency’s requirements. 


FAR 15.203, “Request for Proposals,” states that requests for proposals (RFPs) are used 

in negotiated acquisitions to communicate Government requirements to prospective 

contractors and to solicit proposals. An RFP describes the anticipated terms and 

conditions that will apply to the contract; information required to be in the offeror’s 

proposal; and factors and significant subfactors, and their relative importance, which will 

be used to evaluate the proposal. 


FAR Part 8, “Required Sources of Supplies and Services,” states that the blanket 

purchase agreement (BPA) may be established by ordering activities under any schedule 

contract to fill repetitive needs for supplies or services. A BPA can be established with 

one or more schedule contractors. The number of BPAs to establish is within the 

discretion of the ordering activity to maximize the effectiveness of the BPAs. Each BPA 

addresses the frequency of ordering, invoicing, discounts, requirements, delivery 

locations, and time. 


FAR 16.703, “Basic Ordering Agreements,” states that basic ordering agreements 

(BOAs) are used to expedite contracting for uncertain requirements for supplies or

services when specific items, quantities, and prices are not known at the time of the 

agreement is executed, but a substantial number of requirements for the type of supplies 

or services covered by the agreement are anticipated to be purchased from the contractor. 

A BOA is not a contract. 


The Navy used its own contracting offices as well as those from the Marine Corps, 

Air Force, and DLA to support the solicitation and award of 11 Navy NTEET projects. 

Appendix D contains more detail on the 11 projects. The Navy, Marine Corps, 

Air Force, and DLA used BAAs, BOAs, RFPs, RFQs, modifications, and sole-source 

justification techniques to solicit and award the NTEET projects. As of July 31, 2010, 

11 NTEET projects had awarded a total of 35 contract actions, valued at $55.5 million of 

the $72.9 million in available Navy RDT&E Recovery Act funds. 


Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program Procedures,” July 29,
2010, requires DoD organizations to implement a comprehensive system of internal
controls to provide reasonable assurance that programs are operating as intended and to
evaluate the effectiveness of the controls. We identified an internal control weakness in




                                             5

DON’s posting of solicitation and award notices for NTEET program contract actions.
We will provide copy of the final report to the senior official responsible for internal
controls at the DON.




                                             6

Finding. DON NTEET Program
Implementation
DON properly justified and adequately planned and funded 11 Recovery Act NTEET
projects. However, the Navy, Marine Corps, and the Air Force could have improved
initial execution of the projects by:

      properly posting presolicitation or award notices for 8 contract actions on the
       FBO Web site,
      including required FAR Recovery Act contract clauses in 8 contract actions, and
      describing the work to be performed for 2 contract actions on the FBO Web site.

The Navy, Marine Corps, and Air Force did not post presolicitations or award notices,
and did not include required FAR Recovery Act clauses in the contract actions, or
describe the work to be performed in the presolicitations or award notices posted on the
FBO Web site because contracting officials modified previously negotiated non-
Recovery Act contract actions and were unaware that Recovery Act funds required the
clauses. Inclusion of all applicable Recovery Act clauses in contract actions informs
contractors about reporting requirements and promotes compliance. As a result, DON
did not achieve transparency in all its Recovery Act actions, which was a primary
objective of the Recovery Act.

Projects Were Properly Planned
The DoD Energy Security Task Force—included members from the Military
Departments, Defense agencies, and the Office of the Secretary of Defense and chaired
by the Director, Defense Research and Engineering—reviewed the NTEET projects. The
DoD Energy Security Task Force selected 11 DON NTEET projects to reduce the
Department’s energy demand via increasing fuel efficiency or advancing new
technologies related to alternative energy sources, shown in Table 2, based on their
ability to satisfy DoD capability gaps, present opportunities for military applications, or
spur initiatives within industry and DoD Components.

DON Promptly Distributed NTEET Program Funding
The Office of the Under Secretary of Defense (Comptroller/Chief Financial Officer)
personnel released funds totaling $75 million appropriated in Recovery Act to the
Assistant Secretary of the Navy (Financial Management and Comptroller)
(ASN(FM&C)) on March 10, 2009. The ASN (FM&C) personnel properly distributed
Recovery Act funds to the Navy Commands on March 20, 2009. Of the $75 million, the
Navy Commands were provided $72.9 million in funding for the 11 DON NTEET
projects. On April 16, 2009, the Comptroller, Office of Naval Research, appropriated
$2.1 million to finance Navy NTEET set-aside requirements for Small Business
Innovative Research ($1.875 million) and Small Business Technology Transfer
($225,000) projects. We reviewed funding and contracting documentation for the
11 DON NTEET projects. DON contracting officials promptly and fairly distributed


                                             7

Recovery Act funds, meeting the Recovery Act goals for the NTEET projects. DON
personnel began the process to award contract actions within days of receiving Recovery
Act funds.

 Table 2. DON NTEET Recovery Act Projects Funded by RDT&E Appropriation
                     Project                            Command/Headquarters     Amount
                                                                               (in millions)
 1. Improved Environmental Control Equipment                   HQMC               $3.402
 2. Ocean and Wave Energy Utilization-OTEC                    NAVFAC               8.554
 3. Alternative Test Fuel and Cert Protocol                   NAVAIR               5.152
        Acceleration
 4. Plasma Fusion (Polywell)                                    ONR               1.944
 5. Integrated Generator/Environmental Control                 HQMC               2.430
 6. On-Board Vehicle Power                                     HQMC               3.888
 7. F-18 Engine Efficiency Improvements                       NAVAIR             15.552
 8. Aircraft Energy Conservation RDTE Program                 NAVAIR              1.458
 9. Hybrid Electric Drive System Development for              NAVSEA             26.244
        Surface Combatants
10. Advanced High Energy HVAC System                          NAVSEA              2.624
11. Navy Shipboard Energy Program                             NAVSEA              1.652
Subtotal                                                                         72.900
Small Business Innovative Research and Small                   Various            2.100
Business Tech Transfer Set-Aside*
  Total                                                                         $75.000


DON NTEET Contract Actions Were Generally Competed
The Navy, Marine Corps, Air Force, and DLA executed 35 contract actions related to the
                                    11 projects. See Appendix F for a summary of the
       . . . 18 of the 35 DON       issues on the 35 contract actions reviewed. According
      NTEET contract actions        to FPDS, 18 of the 35 DON NTEET contract actions
    (51 percent) were solicited     (51 percent) were solicited and awarded based on full
    and awarded based on full       and open competition; an additional 7 contract actions
       and open competition.        (20 percent) were solicited and awarded through full
                                    and open competition after exclusion of sources. For
the remaining 10 contract actions (29 percent), contracting officials executed sole-source
awards.

Use of Modifications to Original Contracts
The Navy, Marine Corps, and Air Force used modifications to existing contracts for 18 of
the 35 NTEET actions, valued at $14.8 million. Of the 11 DON NTEET projects, 5 used
modifications to existing contracts. The Navy awarded one modification for the F-18
Engine Efficiency Improvements. The Navy Shipboard Energy Program and Hybrid
Electric Drive System Development for Surface Combatants had 2 and 13 modifications
each issued against the original contracts, respectively. The Marine Corps awarded one



                                                   8

modification for the Integrated Generator/ Environmental Control project. The Air Force
awarded one modification for the Aircraft Energy Conservation RDTE project.

Use of Orders Against Established Contracts
The Navy and Marine Corps placed orders against established contracts for 8 of the
35 NTEET actions, valued at $13.9 million. Of the 11 DON NTEET projects, 4 used
orders against established contracts. The Navy placed one order each for the F-18 Engine
Efficiency Improvements, and Advanced High Energy HVAC System. The Alternative
Test Fuel and Cert Protocol Acceleration and Improved Environmental Control
Equipment had 3 and 4 orders each issued against the established contracts, respectively.

Justified Sole-Source Contracts
The Navy, Marine Corps, and Air Force used sole-source justifications for 10 contract
actions, valued at $21.4 million of Recovery Act funds. FAR 6.302 allows for the use of
sole-source contracts when “only one responsible source and no other supplies or services
will satisfy agency requirements.” All 10 contract actions included acceptable
justification and approval documentation in the contract files, which cited the use of a
sole-source contractor as the only existing responsible source. The Marine Corps used
sole-source contracting for three contract actions on the Improved Environmental Control
Equipment project. NAWCWD used one sole-source contract action for the Plasma
Fusion (Polywell) project. Naval Sea Systems Command (NAVSEA) had one sole-
source contract action for the Hybrid Electric Drive Systems Development for Surface
Combatants. AFMC had one sole-source contract action for the Aircraft Energy
Conservation RDTE project. NAVAIR issued four sole-source contract actions, two for
the F-18 Engine Efficiency Improvements project and two for the Alternative Test Fuel
and Cert Protocol Acceleration project.

Use of Multiple Contract Types
The Navy, Marine Corps, Air Force, and DLA used different contract types for the
35 contract actions: 11 firm-fixed-price and 24 cost-plus-fixed-fee. Eleven contract
actions, valued at $14.4 million, were firm-fixed-priced. FAR 35.006, “Contracting
Methods and Contract Type,” states that the absence of precise specifications and
difficulties in estimating costs with accuracy normally preclude the use of fixed-price
contracting for research and development; therefore, the use of cost-reimbursement
contracts may be more appropriate. However, four DON projects’ specifications were
sufficiently precise to allow for the award of the 11 firm-fixed-price contract actions.
Twenty-four DON NTEET contract actions, valued at $41 million, used a cost-plus-
fixed-fee structure.

DON Needs to Improve Transparency of NTEET
Contracting
We found multiple instances in which public awareness was not achieved in DON project
contract actions and solicitations. The problems included missing Recovery Act clauses
in solicitations and contract actions and lack of public notification of contracts solicited



                                             9

and awarded. See Appendix F for a summary of transparency problems for all
35 contract actions.

Recovery Act Contract Clauses Were Missing
The Navy, Marine Corps, and Air Force should have included FAR-required Recovery
Act clauses for eight of the contract actions reviewed. For example, MARCORSYSCOM
                                         had four contract actions that should have
     Navy, Marine Corps, and Air
                                         included appropriate FAR clauses for the
  Force should have included FAR-
                                         Improved Environmental Control Equipment
  required Recovery Act clauses for
                                         project and one contract action that should have
      eight of the contract actions
                                         included appropriate FAR clauses for the
                reviewed.
                                         Integrated Generator/Environmental Control
project. MARCORSYSCOM did not include the clauses because contracting officers did
not follow DoD and OMB guidance. MARCORSYSCOM contracting officials stated
that required clauses were left out due to lack of contracting official oversight.

NSWCCD/SSES had one contract action that should have included appropriate FAR
clauses for the Hybrid Electric Drive System Development for Surface Combatants
project and NAWCAD had one contract action for the Alternative Test and Cert Protocol
Acceleration project. One additional contract action for the NAVAIR-implemented
Aircraft Energy Conservation RDTE Program did not include at least one required
Recovery Act clause. NAVAIR used an AFMC contract to support the project. AFMC
contracting officials stated that Recovery Act funds were not referenced on the purchase
request. The AFMC contracting officials further stated that the purchase request was to
fund a previously negotiated effort, which was not identified to the contracting office as a
Recovery Act effort, and that the procurement contracting officer was unaware these
were Recovery Act funds. AFMC should modify the noted contract actions to comply
with Recovery Act contracting requirements.

Public Awareness of NTEET Contracts Could Be Improved
                                  Twenty-nine DON NTEET contract actions met
   Twenty-nine DON NTEET          transparency requirements. Public awareness was not
      contract actions met        achieved for six contract actions, where contracting
  transparency requirements.      officials did not post a presolicitation, award notice, or
adequate project description on FBO. See Appendix F for a description of individual
project transparency problems.

Some Projects Lacked Recovery Act Solicitations
Navy, Marine Corps, and Air Force officials did not post on the FBO Web site
presolicitation notifications for four of the NTEET contract actions. According to
FAR 5.7, “Publicizing Requirements Under the American Recovery and Reinvestment
Act of 2009,” the solicitation notifications must be posted. The transparency requirement
was not achieved in cases where presolicitations were not posted on the FBO Web site.
The Naval Surface Warfare Center, Carderock Division-Headquarters (NSWCCD/HQ)
did not post a presolicitation notification for one of two Navy Shipboard Energy Program
contract actions. NSWCCD/HQ contracting officials stated Recovery Act guidance had


                                             10

not been fully implemented internally. NAVSEA officials noted to us that subsequent
posting of the presolicitation notice was no longer required as a result of DoD guidance
of March 19, 2010. However, the presoliciation requirement for the NSWCCD contract
action was in place before the revised DoD guidance removing the requirement was
issued. AFMC did not post a presolicitation notification for the Aircraft Energy
Conservation RDTE Program. Also, MARCORSYSCOM did not post a presolicitation
notification for two of the four contract actions for the Improved Environmental Control
Equipment project.

NTEET Projects Without Recovery Act Award Notices
Navy and Marine Corps officials did not issue required FBO award notices for four
contract actions: three from MARCORSYSCOM and one from NSWCCD/SSES. In
addition, four award notices were not posted in a timely manner. NSWCCD/SSES
posted the two award notices for one project 2 and 5 months, respectively, after contract
award. The first contract action was awarded on June 17, 2009, and posted on
November 19, 2009. The second was awarded on September 11, 2009, and posted on
November 25, 2009. According to NSWCCD/SSES contracting officials, task orders
against indefinite-delivery, indefinite-quantity multiagency contracts are exempt from
synopsis requirements. NAVAIR contracting officials posted one award notice for one
project 9 months after contract award. AFMC contracting officials posted one award
notice for one project 1 year and 4 months after contract award. After we notified
NAVAIR and AFMC contracting officials of the error, NAVAIR and AFMC contracting
officials took corrective action by posting the two awarded on November 2, 2010, and
November 3, 2010, respectively. Federal Government organizations must meet
requirements for Recovery Act contract actions by posting information on the FBO, as
directed by FAR Subpart 5.7.

NTEET Projects Without Adequate Project Descriptions in FBO
Two NTEET contract actions did not meet transparency requirements because they did
not contain sufficient detail to provide the general public with a clear understanding for
the purpose of the contract actions in support of the project. Marine Corps did not post
adequate project descriptions in FBO, as directed by FAR Subpart 5.2, “Synopses of
Proposed Contract Actions.”

Conclusion
Navy, Marine Corps, Air Force, and DLA officials generally used competitive
contracting procedures awarding 35 actions, valued at approximately $55.5 million, for
11 DON NTEET Recovery Act projects. We found eight contract actions that did not
have a solicitation and/or an award notice posted on FBO. In addition, we found
two solicitations and award notices where contracting officials did not facilitate
transparency by providing detailed descriptions of the projects. Also, 8 of the 35 contract
actions did not include at least one required FAR Recovery Act clause. We also found
multiple instances where public awareness could have been increased in 5 of the 11 DON
NTEET projects. Greater public awareness would have been achieved by improving
contracting office oversight, posting presolicitations and award notices, including
required FAR clauses in the contract actions, and describing the work to be performed in


                                             11

the solicitations and award notices posted on FBO. Inclusion of all applicable Recovery
Act clauses in contract actions informs contractors about reporting requirements and
promotes compliance.

Management Comments on the Report
The Navy, Marine Corps, and Air Force provided comments on our internal controls
discussion, one finding discussion area, and our discussion of individual Navy NTEET
projects in Appendix D. See Appendix E for a summary of those management comments
and our response. See the Management Comments section of the report for the full text
of the Navy, Marine Corps, and Air Force comments.

Recommendations, Management Comments, and Our
Response
Deleted, Renumbered, and Revised Recommendations
As a result of management comments, we deleted draft report Recommendations 2, 4,
and 7.a. We renumbered draft Recommendation 3 as Recommendation 2. We also
renumbered draft Recommendation 5 as Recommendation 3 and revised and renumbered
draft Recommendation 6 as Recommendation 4. Further, we revised and renumbered
draft Recommendation 7.b as Recommendation 5.

Responding for the Commander, NAVAIR, the Deputy Assistant Commander for
Contracts disagreed with draft recommendations that the Commander direct the posting
of information for contract action N00019-09-G-0009 (DO 0006) to include full
justification for awards that are not fixed-price in FBO and other required Web sites, and
the posting of contract action N00019-09-G-0009-0005-01 in the FPDS. The Deputy
Assistant Commander also stated that a May 12, 2009, FPDS Contract Action Report for
N00019-09-G-0009-0005-01 supported that the action was posted to FPDS the same day
the modification was issued. After further review of the contract actions at issue, we
agree with Deputy Assistant Commander comments that the pre-award and award notices
for the contract actions were posted on public Web sites as required by FAR part 5. As a
result, we deleted the recommendations from this report and revised the report discussion
and summary report data to note the postings and addressed reasoning for awarding the
order on a cost-plus-fixed-fee basis.

The Commander, NAVSEA, disagreed with draft Recommendation 4 that the
Commander, NSWCCD/HQ, direct the posting of the presolicitation notice for contract
action N00178-04-D-4030 FD03 (P00041). The Commander stated that subsequent
posting of the presolicitation notice is no longer required, according to a March 19, 2010,
DoD memorandum, “Revised Posting and Reporting Requirements for the American
Recovery and Reinvestment Act of 2009 (Recovery Act).” The DoD memorandum
revised the April 21, 2009, DoD guidance requiring presolicitation transparency for
contract modifications. On July 16, 2010, a final FAR requirement exempted
presolicitation notices for modifications to existing contracts and was incorporated into
FAR 5.704. However, FAR 5.705 continues to require post-award disclosure and


                                            12

publicizing of modifications to existing contracts. We agree with the Commander’s
comments and deleted draft Recommendation 4 regarding contract action N00178-04-D-
4030 FD03 (P00041).


1. We recommend that the Assistant Secretary of the Navy (Research,
Development, and Acquisition) direct contracting offices to:

      a. Post presolicitation and award notices to the required public Web sites for
Recovery Act work.

        b. Include appropriate descriptions of the Recovery Act work to be
performed in public postings, full justification for solicitations or awards that are
not fixed-price or subject to full and open competition in public postings, and all
appropriate Recovery Act Federal Acquisition Regulation clauses for contract
actions.

Navy Comments
The Deputy Assistant Secretary of the Navy (Acquisition and Logistics Management),
responding on behalf of the Assistant Secretary of the Navy (Research, Development, and
Acquisition), agreed with the recommendations and stated that his office had issued four
memoranda between March 25, 2009, and August 25, 2009, specifically directing Navy
and Marine Corps contracting offices with contract actions funded in whole or in part by
Recovery Act funds to comply with mandatory DoD instructions and implement
guidance published by the OMB. The Deputy Assistant Secretary noted that the guidance
included requirements for posting presolicitations and award notices. The four
memoranda issued guidance on reporting contract actions; and reporting performance
assessments for actions funded by the Recovery Act.

Our Response
The Deputy Assistant Secretary of the Navy comments are partially responsive to the
intent of the recommendation. The guidance documents cited in the comments were
already available to Navy contracting and program management personnel at the time of
the initial execution of the contracting actions covered by this report and the required
actions still were not taken. However, we see no benefit to pursuing further management
comments as no future Navy NTEET program Recovery Act contracting actions appear
likely.


2. We recommend that the Commander, Naval Air Warfare Center, Aircraft
Division, direct the posting of contract action N68335-10-C-0239 to include all
required Recovery Act clauses.

Navy Comments
Responding for the Commander, Naval Air Warfare Center, Aircraft Division, the
Deputy Assistant Commander for Contracts partially concurred with the


                                           13

recommendation. The Deputy Assistant Commander stated that contract N68335-10-C-
0239 did include the required FAR clause 52.204-11, “American Recovery and
Reinvestment Act-Reporting Requirements.” The Deputy Assistant Commander
concurred that FAR clauses, 52.203-15, “Whistleblower Protections Under the American
Recovery and Reinvestment Act of 2009,” and 52.215-2, Alternative I, “Audit and
Records - Negotiation,” were required and would be incorporated into the contract by
modification no later than March 31, 2011.

Our Response
Comments from the Deputy Assistant Commander for Contracts are responsive, and the
actions meet the intent of the recommendation. We verified that an April 4, 2011,
modification to contract N68335-10-C-0239 incorporated the two required FAR clauses.
No further management comments are required.


3. We recommend that the Commander, Naval Surface Warfare Center, Carderock
Division-Ship Systems Engineering Station:

      a. Direct the posting of award notice for contract action N65540-08-D-0009-
0007-02, and

       b. Direct the modification of contract action N00178-04-D04089 EHP1 43 to
include all required Recovery Act clauses.


Navy Comments
The Commander, NAVSEA, did not concur with Recommendation 3. The Commander
stated that the award notice for contract action N65540-08-D-0009-0007-02 was initially
posted on February 3, 2010, to Navy Electronic Commerce Online, as required per Navy
guidance. The Commander agreed that FBO did not appear to show the award notice,
and the Commander considered the missing FBO entry to be a Navy Electronic
Commerce Online systems error and not a NSWCCD/HQ procedural error. The
Commander also stated that subsequent contract modifications successfully transferred
the posting from the Navy Electronic Commerce Online to FBO. The Commander
further noted that all subsequent posting and quarterly reporting actions were complete
for N65540-08-D-0009-0007-02, as the contractor had submitted a final quarterly report
in the fourth quarter of 2010.
The Commander stated that two of the clauses were included by reference in the subject
modification and one clause was incorporated by full text. The Commander further noted
that an administrative modification was issued to clearly state the titles of the three
clauses and to incorporate FAR clause 52.204-11 by reference, instead of full text, on
February 18, 2011.




                                          14

Our Response
On April 25, 2011, as a result of our subsequent discussions with Office of the ASN
(RD&A) personnel, the Navy posted contract action N65540-08-D-0009-0007-02 to
FBO. While the Commander’s comments were not responsive to Recommendation 3.a,
the subsequent Navy action was responsive to the recommendation and to OMB
Memorandum M-09-10 requirements that contract award notices be posted on the FBO
Web site in accordance with FAR part 5.
The Commander’s comments were responsive to Recommendation 3.b. We verified that
modification N00178-04-D04089 EHP1-64, February 18, 2011, incorporated the three
required FAR clauses. No further management comments are required.


4. We recommend that the Commander, Marine Corps Systems Command:

       a. Direct the posting of:

            (1) Award notices for contract actions M67854-08-A-5051 (order
0004), M67854-08-A-5023 (order 0009), and M67854-06-C-5062 (P00006).

              (2) Presolicitation notices for contract actions M67854-08-A-5051
(order 0004), M67854-08-A-5023 (order 0009).

              (3) Appropriate descriptions to contract actions M67854-08-A-5051
(order 0004), and M67854-08-A-5023 (order 0009) of the Recovery Act work to be
performed in Federal Business Opportunities and other required Web sites.

       b. Direct the modification of contract actions M67854-08-A-5051
(order 0009), M67854-08-A-5023 (order 0004), and M67854-07-D-5115 (order 0013)
M67854-09-C-5113, and M67854-06-C-5062 (P00006) to include all required
Recovery Act clauses.


Marine Corps Comments
The Commander, MARCORSYSCOM, agreed with the recommendations. The
Commander stated that action on Recommendations 4.a(1) and 4.a(2) would be
completed by April 9, 2011, and that action on Recommendation 4.a(3) had been
completed on August 5, 2009. The Commander also provided technical comment
regarding Recommendation 4.b to revise incorrect numbering for two of the contract
actions. The Commander stated that action on Recommendation 4.b was completed in
October 2009.

Our Response
Comments from the Commander are responsive, and the actions meet the intent of the
recommendations. We revised Recommendation 4.b per the Commander’s comments.
We verified that MARCORSYSCOM actions related to Recommendation 4 were


                                         15

completed, although in some cases actual revisions did not occur until April 2011. No
further comments are required.

5. We recommend that the Commander, Air Force Materiel Command, direct the
modification of contract F34601-03-D-0006 to include all required Recovery Act
clauses.

Air Force Comments
Responding for the Commander, AFMC, the Deputy Director of Contracting agreed that
the Air Force contracting officer did not comply with Recovery Act reporting
requirements for contract action F34601-03-D-0006-0007-04 and omitted the pertinent
Recovery Act clauses with the issuance of the order. The Deputy Director stated that the
contracting officer was not aware that Recovery Act funding was being used at the time
of the receipt of the Military Interdepartmental Purchase Request from the Navy. The
Deputy Director stated that AFMC was unable to comply with either draft
Recommendation 7.a or Recommendation 5 (draft Recommendation 7.b) that the AFMC
Commander direct the posting of the presolicitation notice for the contract action because
work on the order had been completed. The Deputy Director noted that in the future,
AFMC will strive to ensure contracting officers are aware of Recovery Act special
reporting requirements and special clauses before issuance of solicitations.

Our Response
The Deputy Director’s comments are partially responsive to the recommendation. Based
on the Deputy Director’s comments and subsequent supporting data, we concluded that
contract action F34601-03-D-0006-0007-04 was completed and, as such, a
recommendation concerning the posting of the presolicitation notice for contract action
was obsolete, so we deleted the recommendation from the final report. However, as the
underlying contract F34601-03-D-0006 remains open and active, we still believe that the
Air Force should modify the contract to include applicable Recovery Act clauses for any
such work performed under the contract. We have modified the recommendation to note
the need to modify the underlying contract and request the Air Force provide additional
comments to this recommendation.




                                           16

Appendix A. Scope and Methodology
This is the fifth in a series of reports on DoD implementation of the Recovery Act
NTEET program. We conducted this performance audit from September 2009 to
January 2011, in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our finding and our conclusions
based on our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives.

We visited or contacted the following DON NTEET Recovery Act project offices:
Office of Naval Research; NSWCCD/SSES (one project); MARCORSYSCOM (three
projects); NAWCWD-China Lake (one project); NAVSEA-Washington Navy Yard
(two projects); NAVAIR-Patuxent River (three projects); and NAVFAC-Port Hueneme
(one project). During these visits and contacts we researched each project, its status in the
contract award process, and how it was managed to comply with the transparency and
accountability objectives in the Recovery Act and with implementing guidance issued by
OPM, FAR, and DoD.

We obtained documentation, including charts on individual DON NTEET projects,
Program Recovery Plan Weekly Reports, BAA process flow charts, BAA
announcements, and obligation and expenditure plans. We reviewed program-related
solicitation and contract award notices posted on the FBO Web site through July 31,
2010. Specifically, we determined whether:

      the selected projects were adequately planned to ensure the appropriate use of
       Recovery Act funds (Planning);
      funds were awarded and distributed in a prompt, fair, and reasonable manner
       (Funding);
      contract actions contained required Recovery Act FAR clauses (Initial
       Execution); and
      use of funds that were transparent to the public on FBO Government Web site
       (Project Execution).

Navy, Marine Corps, Air Force, and DLA officials used BAAs, BOAs, RFPs, and
requests for quotes (RFQs) to solicit and award 35 contract actions, for a total of
$55.5 million. Of the 35 contract actions, 8 used BAAs, 4 used BOAs, 21 used RFPs,
and 2 used RFQs.

We used this supporting documentation to determine whether the contract solicitations
and awards met OMB, FAR, and DoD Recovery Act implementation and transparency
requirements. We applied the Recovery Act Contract Checklist developed by the
Recovery Accountability and Transparency Board. In addition, we met with officials in
the Office of the Under Secretary of Defense for Acquisition, Technology, and Logistics
to learn how NTEET projects were selected for Recovery Act funding.



                                             17

We did not use classical statistical sampling techniques that would permit generalizing
results to the total population because there were too many potential variables with
unknown parameters at the beginning of this analysis. Predictive analytic techniques
provided a basis for logical coverage not only of Recovery Act dollars being expended
but also of types of projects and types of locations across the Military Services, Defense
Agencies, State National Guard units, and public works projects managed by USACE.

Use of Computer-Processed Data
We used computer-processed data to perform this audit. Specifically, we used the notices
on the FBO Web site, data reported from the FPDS and the Excluded Parties List System,
the DoD Recovery Act Financial and Activity Report, and contract documentation from
the Electronic Data Archive System posted from April 2009 to November 2010. We
tested the accuracy of this data by comparing the project data reported on these systems
for consistency and by meeting with program officials responsible for reporting on the
applicable Recovery Act requirements. Our audit focused on the reporting of contract
actions on specific DON projects. From these procedures, we concluded that the DoD
data were sufficiently reliable for our purposes.

Prior Coverage
The Government Accountability Office, the Department of Defense Inspector General,
and the Military Departments have issued reports and memoranda discussing DoD
projects funded by the Recovery Act. You can access unrestricted reports at
http://www.recovery.gov/accountability.




                                            18

Appendix B. Recovery Act Criteria and
Guidance
The following list includes the primary Recovery Act criteria documents (notes appear at
the end of the list):

       U.S. House of Representatives Conference Committee Report 111-16, “Making
        Supplemental Appropriations for Job Preservation and Creation, Infrastructure
        Investment, Energy Efficiency and Science, Assistance to the Unemployed, and
        State and Local Fiscal Stabilization, for the Fiscal Year Ending September 30,
        2009, and for Other Purposes,” February 12, 2009

       Public Law 111-5, “American Recovery and Reinvestment Act of 2009,”
        February 17, 2009

       OMB Memorandum M-09-10, “Initial Implementing Guidance for the American
        Recovery and Reinvestment Act of 2009,” February 18, 2009

     OMB Bulletin No. 09-02, “Budget Execution of the American Recovery and
      Investment Act of 2009 Appropriations,” February 25, 2009

    	 White House Memorandum, “Government Contracting,” March 4, 2009

       White House Memorandum, “Ensuring Responsible Spending of Recovery Act
        Funds,” March 20, 2009

    	 OMB Memorandum M-09-15, “Updated Implementing Guidance for the
       American Recovery and Reinvestment Act of 2009,” April 3, 20091

    	 OMB Memorandum M-09-16, “Interim Guidance Regarding Communications
       With Registered Lobbyists About Recovery Act Funds,” April 7, 2009

    	 OMB Memorandum M-09-19, “Guidance on Data Submission under the Federal
       Funding Accountability and Transparency Act (FFATA),” June 1, 2009

    	 OMB Memorandum M-09-21, “Implementing Guidance for the Reports on Use
       of Funds Pursuant to the American Recovery and Reinvestment Act of 2009,”
       June 22, 20092

    	 OMB Memorandum M-09-24, “Updated Guidance Regarding Communications
       with Registered Lobbyists About Recovery Act Funds,” July 24, 2009




                                           19

    	 OMB Memorandum M-09-30, “Improving Recovery Act Recipient Reporting,”
       September 11, 2009

      OMB Office of Federal Procurement Policy, “Interim Guidance on Reviewing
       Contractor Reports on the Use of Recovery Act Funds in Accordance with FAR
       Clause 52.204-11,” September 30, 20092

      OMB Memorandum M-10-08, “Updated Guidance on the American Recovery
       and Reinvestment Act – Data Quality, Non-Reporting Recipients, and Reporting
       of Job Estimates,” December 18, 20092

      OMB Memorandum M-10-14, “Updated Guidance on the American Recovery 

       and Reinvestment Act,” March 22, 20102


    	 White House Memorandum, “Combating Noncompliance With Recovery Act
       Reporting Requirements,” April 6, 2010

    	 OMB Memorandum M-10-17, “Holding Recipients Accountable for Reporting
       Compliance under the American Recovery and Reinvestment Act,” May 4, 20102

    	 OMB Memorandum M-10-34, “Updated Guidance on the American Recovery
       and Reinvestment Act,” September 24, 20102




Notes
1
 Document provides Government-wide guidance for carrying out programs and activities enacted in the
American Recovery and Reinvestment Act of 2009. The guidance states that the President’s commitment is
to ensure that public funds are expended responsibly and in a transparent manner to further job creation,
economic recovery, and other purposes of the Recovery Act.
2
 Document provides Federal agencies guidance for carrying out the reporting requirements included in
section 1512 of the Recovery Act. The reports will be submitted by recipients beginning in October 2009
and will contain detailed information on the projects and activities funded by the Recovery Act.




                                                   20

Appendix C. DoD Near Term Energy-
Efficient Technologies Program Funding and
Functional Areas
The Recovery Act appropriated $300 million in DoD RDT&E funds in four appropriation
accounts of $75 million each for Army, Navy, Air Force, and Defense-wide RDT&E
Recovery Act projects. The DoD NTEET program divided the funds to support project
categories. The table below provides the RDT&E funding and category of the planned
work.

         Program Categories and Values of Energy-Related RDT&E Projects
                               (values in thousands)
         Category          Army         Navy          Air  Defense-     DoD
                                                     Force  Wide        Total
Fuel Optimization for
Mobility Platforms             $40,000    $52,900      $28,000       $16,000      $136,900
Facility Energy Initiatives     10,000      3,500                                   13,500
Operational Efficiencies and
Commercial Practices            None        None         1,000         9,000        10,000
Domestic Supply and
Distribution                    15,000      16,100      37,000        47,000       115,100
Tactical Power Systems and
Generators                      10,000       2,500       9,000         3,000        24,500
    Total                      $75,000    $75,000      $75,000       $75,000      $300,000


The energy-related projects have the potential to identify technologies that can increase
our fuel efficiency and thereby reduce our dependence on foreign energy.

Fuel Optimization for Mobility Platforms
These RDT&E efforts include testing various materials, like ceramics, in engine and
equipment design to lower thermal loads and decrease the need for cooling of component
parts that require additional energy to perform the cooling tasks. Efforts also include
conducting demonstrations on the fuel efficiency of low observable subsonic propulsion
systems for unmanned aerial vehicles.

Facility Energy Initiatives
These projects include developing or reviewing off-the-shelf enterprise energy auditing
programs and software that can couple energy security with energy efficiency, reduce
power consumption in tactical heating and air-conditioning systems, and develop whole-
building energy modeling and monitoring systems and renewable energy building
integration.




                                            21

Operational Efficiencies
These projects include developing or reviewing off-the-shelf enterprise energy auditing
and water management programs and software that can couple energy security with
energy efficiency, whole-building energy modeling, monitoring systems, and renewable
energy building integration.

Domestic Energy Supply and Distribution
These projects include waste-to-energy and waste-to-fuel technology research and
demonstrations; landfill gas use; biomass and algae fuel oil production; multijunction
solar photovoltaics for cells and sensors; wave and thermal energy development from
oceans; wind power utilization; and radar cross sections analysis.

Tactical Power Systems and Generators
These projects include developing and demonstrating methanol-based portable fuel cells
with improved energy densities, long-duration multijunction photovoltaics for unmanned
aerial vehicles, waste heat to cooled down by means of absorption environmental control
systems, and scalable microgrid electrical distribution systems for fixed and tactical
installation use.




                                            22

Appendix D. Description and Status of DON
Near Term Energy-Efficient Technologies
Projects
The Recovery Act provided $75 million of RDT&E funding for improvements in energy
generation and efficiency, transmission, and storage and use on military installations and
within operations forces. The projects include research and development of
propulsion/electric drive/engine efficiency, aircraft fuel efficiency, ship fuel efficiency,
operational changes, renewable development and testing, alternative fuels, alternative
fuel sources, and small-scale cogeneration.

1. On-Board Vehicle Power
The purpose of the On-Board Vehicle Power project is to compete, procure, and test
innovative on-board (or under-hood) vehicle power systems that use vehicles’ internal
combustion engine. The benefits of the On-Board Vehicle Power project are to improve
tactical wheeled vehicle fuel economy while providing exportable electric power,
increase electric power by 5–10-fold, and increase fuel savings up to 40 percent.
MARCORSYSCOM awarded two contract actions under this project for a total of
$733,569. MARCORSYSCOM contracting efforts complied with Recovery Act
requirements, the OMB guidance, the FAR, and DoD implementing guidance.

2. F-18 Engine Efficiency Improvements
The primary objective of this project is to develop and test technology to improve fuel
efficiency of the F-414 engine used in the F-18 E/F/G models. NAVAIR issued two
contract actions to the General Electric Company, valued at $15 million. NAVAIR
contracting efforts complied with Recovery Act requirements, the OMB guidance, the
FAR, and DoD implementing guidance.

3. Aircraft Energy Conservation RDTE Program
The purpose of this project is to institute aircraft energy conservation and upgrade air
flight performance navigation. DON is seeking innovative concepts that can introduce
applications for aircraft energy conservation and carbon footprint reduction with the
potential for rapid transition to Fleet. NAVAIR used an existing Air Force contract with
Rolls Royce to obtain the services through a July 7, 2009, modification valued at
$228,104. We concluded that public knowledge would have been improved by use of
required presolicitation notice posted on the FBO Web site and ensuring that all of the
required Recovery Act clauses were listed in the contract action.

4. Hybrid Electric Drive System Development for Surface
   Combatants
The objective of this project is to develop and test (on land and at sea) electrical rotating
machine, converter power electronics, supervisory control system, and ship integration


                                              23

for hybrid electric drive system. Another objective of this project is to reduce DDG-51
fuel consumption and increase mission effectiveness through longer time on station. It
also supports cruising speeds (less than 12 knots) without the use of main propulsion.
NAVSEA and NSWCCD/SSES awarded 14 contract actions, valued at $17.6 million, for
this project. NSWCCD/SSES would have improved public knowledge by posting an
award notice and by ensuring that all of the required Recovery Act clauses were listed in
the contract action.

5. Advanced High Energy HVAC System
The Advanced High Energy (Heating, Ventilating, and Air-Conditioning) HVAC
System project’s objective is to develop and test an advanced high-efficiency shipboard
HVAC system to reduce fuel used to provide shipboard cooling. Navy chilled water
plants (often called air-conditioning plants or chillers) provide mission-critical cooling to
weapons and command and control systems and for crew comfort. As these systems
advance to include high-energy radars and directed energy weapons, the cooling
demand—along with acquisition, fuel, and life cycle cost—will increase dramatically.
The Navy’s current cooling technology (vapor compression) is 40 years old and is based
on electronically enhanced, mechanically complex fixed-speed centrifugal compressors.
Navy HVAC systems must be very robust, to have 35–50-year service lives, and are
designed for extreme environments. NAVSEA awarded one contract action to York
International Corporation, valued at $2.2 million, for this project. NAVSEA contracting
efforts complied with Recovery Act requirements, the OMB guidance, the FAR, and
DoD implementing guidance.

6. Navy Shipboard Energy Program
The objective of this project is to demonstrate fuel savings of incorporating hull
appendage to eliminate directional stability and steering issues on LHA-1/6 and LHD-1
ship classes. NSWCCD/HQ and NSWCCD/SESS each awarded one contract action,
valued at $30 thousand and $250 thousand, respectively, for this project. NSWCCD/HQ
would have improved public knowledge by posting a presolicitation notice on the FBO
Web site. NSWCCD/SSES contracting efforts complied with Recovery Act
requirements, the OMB guidance, the FAR, and DoD implementing guidance.

7. Improved Environmental Control Equipment
The objective of this project is to reduce power consumption in tactical HVAC and
reduce convoy needs. Another objective is to backfit/test energy efficiency modifications
to environmental control units that incorporate variable-speed fan drives, multifrequency
drive components, and nonchlorofluorocarbon refrigerants. Currently up to 80 percent of
electric power generation on forward bases and outposts is consumed by environmental
control units to provide heating, ventilation, and air-conditioning. Benefits of improved
environmental control equipment include improved energy efficiency, reduced electrical
power requirements, achieving 775,000 gallons of oil fuel savings per year, and
satisfying Environmental Protection Agency hydrochlorofluocarbon restrictions.
MARCORSYSCOM issued five contract actions, valued at $3.1 million, for this project.
We concluded that public knowledge would have been improved by use of required


                                             24

presolicitation and award notices posted on the FBO Web site, an adequate project
description on FBO, posting all contract actions on FPDS, and ensuring that all of the
required Recovery Act clauses were listed in the contract actions.

8. Ocean and Wave Energy Utilization-OTEC
The objective of the Ocean and Wave Energy Utilization-(Ocean Thermal Energy
Conversion) OTEC project is to demonstrate feasibility of wave and thermal energy from
oceans to provide renewable energy for shore installations; demonstrate feasibility of the
full-scale project for Naval Support Facility Diego Garcia; and advance technology.
NAVFAC-Port Hueneme awarded one contract action to Lockheed Martin for
$8.1 million on June 24, 2009. NAVFAC-Port Hueneme’s contracting efforts complied
with Recovery Act requirements, the OMB guidance, the FAR, and DoD implementing
guidance.

9. Alternative Test Fuel and Cert Protocol Acceleration
The Alternative Test Fuel and Cert (Certification) Protocol Acceleration project aims to
accelerate testing of alternative fuels for use in Naval tactical vehicles: ships, aircraft,
and Marine Corps combat vehicles. DON is developing test and certification protocols to
obtain the necessary data required to approve the addition of alternative fuels into JP-5
and F-76 fuels. Protocol testing is currently labor and fuel intensive. DON is seeking
alternative test or analysis technologies that could be substituted into current protocols to
obtain required data while reducing cost and fuel requirements. NAVAIR awarded two
contract actions, DLA awarded one contract action, NAWCAD-Lakehurst awarded one
contract action, and NAVFAC-Port Hueneme awarded one contract action, valued at
$4.7 million, for this project. NAWCAD-Lakehurst would have improved transparency
by ensuring all of the required Recovery Act clauses were included in the contract.
NAVAIR, DLA, and NAVFAC-Port Hueneme’s contracting efforts complied with
Recovery Act requirements, the OMB guidance, the FAR, and DoD implementing
guidance.

10. Plasma Fusion (Polywell)
The Plasma Fusion (Polywell) project is a combined Navy/Defense-wide effort to
demonstrate a fusion plasma confinement system for shore and shipboard applications.
This procurement is a follow-on to initial research into small-scale nuclear fusion systems
using a unique approach of energy matter conversion. It covers research, analysis,
development, and testing to validate the basic physics of the advanced gaseous
electrostatic energy concept. The objective of this procurement is to provide the Navy
with data for potential applications of advanced gaseous electrostatic energy. It builds on
previous concept-demonstration benchtop versions of plasma wiffle balls. NAWCWD-
China Lake awarded one contract action, valued at $1.3 million, for this project.
NAWCWD-China Lake contracting efforts complied with Recovery Act requirements,
the OMB guidance, the FAR, and DoD implementing guidance.




                                             25

11. Integrated Generator/Environmental Control
The Integrated Generator/Environmental Control project’s objective is to develop and test
a more energy-efficient integrated trailer environmental control unit generator, an
integrated high-mobility, multipurpose wheeled-vehicle towable unit that highly supports
command and control systems and other forward-deployed operation centers and
activities. Innovations will include removal of the mechanical-electrical-mechanical
conversion process, a permanent magnet generator, and engine coolant for conditioned
air heating. The benefits of the integrated generator/environmental control project are
fuel savings of 20 percent, greater heating and cooling capacity, and provision of full
30 kilowatts of electrical power output in all environments (compared with 7 kilowatts in
old units). MARCORSYSCOM awarded one contract action, valued at $2.2 million, for
this project. MARCORSYSCOM would have improved public knowledge by posting an
award notice and by ensuring that all of the required Recovery Act clauses were listed in
the contract action.




                                           26

Appendix E. Management Comments on the
Report and Our Response
The Navy and Marine Corps provided comments on the internal controls section,
one finding discussion area, and the discussion of individual Navy NTEET projects in
Appendix D. For the full text of the Navy, Marine Corps, and Air Force comments, see
the Management Comments section of the report.

Marine Corps Comments on Review of Internal Controls
The Commander, MARCORSYSCOM, agreed with the internal controls discussion and
noted that internal control weaknesses discussed in the report would be officially
addressed in the 2011 MARCORSYSCOM Overall Managers Internal Control program.

Navy Comments on Finding: NTEET Projects Without Recovery
Act Award Notices
Responding for the Commander, NAVAIR, the Deputy Assistant Commander for
Contracts disagreed with draft report statements that the Navy could have improved
initial execution of the projects by entering contract action N00019-09-G-0009-0005-01
into the FPDS. As part of the response, the Navy provided us additional documentation
to verify that the contract action had been entered into FPDS.

Our Response
After further review of the contract action at issue, we agree with the Deputy Assistant
Commander’s comment that the FPDS entry for the contract action was posted on public
Web sites as required by FAR part 4, “Administrative Matters.” As a result, we revised
the report discussion and summary report data to note the posting.

Marine Corps Comments on Appendix D: Description and
Status of DON NTEET Projects
The Commander, MARCORSYSCOM, stated that MARCORSYSCOM awarded two
contract actions, valued at $3.9 million, for the aircraft energy conservation project. The
Commander also stated that MARCORSYSCOM issued six contract actions for the
improved environmental control equipment project, valued at $3.4 million. In addition,
the Commander stated that MARCORSYSCOM issued two contract actions, valued at
$2.2 million, for the integrated generator/environmental control project.

Our Response
Our report reviewed Navy-, Marine Corps-, Air Force-, and DLA-awarded contract
actions made as of July 31, 2010, for the 11 Navy NTEET projects. We reviewed two
contract actions valued at $733,569 for the on-board vehicle project and one contract
action valued at $2.2 million for the integrated generator/environmental control project.
The Commander’s comments implied that approximately $3.2 million additional contract
funds were used for the on-board vehicle project and one additional contract action
valued at approximately $0.2 million was used for the integrated generator/environmental
control project. However, the additional MARCORSYSCOM contract actions and


                                            27

funding for the two projects occurred after July 31, 2010, and were not within the time
period limits of this audit’s scope of review. Therefore, we have not included the
additional aircraft energy conservation project and integrated generator/environmental
control projects funding in our final report analysis.
We initially reviewed four contract actions valued at $2.7 million for the improved
environmental control equipment project. The Commander’s comments implied an
additional two contract actions valued at approximately $0.7 million for the same project.
Additional MARCORSYSCOM documentation provided to us showed that one of the
additional contract actions, M67854-10-D-5037-0001, valued at $394,000, occurred
before July 31, 2010. We have modified the final report to include analysis of M67854-
10-D-5037-0001 and have revised our report baseline accordingly to 35 contract actions
valued at $55.5 million for the 11 Navy NTEET projects.




                                           28

Appendix F. DON Near Term Energy-Efficient Technologies Contracts 

                                                                                                                 Posted       Included
                                                                           Use of        Posted      Posted                                Included
                                                                                                               Adequate     Appropriate                Contract
     Project/Contract       Contract     Contract       Source           Previously       Pre-       Award                                 Contract
                                                                                                                Project     Recovery Act                Action
         Number              Action       Type         Procedure         Awarded      solicitation     in                                  Action in
                                                                                                              Description    Clauses in                Amount
                                                                         Contracts      in FBO        FBO                                   FPDS
                                                                                                                in FBO      the Contract
                                                                          On-Board Vehicle Power

     M67854-10-D-                                     Full and open
                            Contract       FFP                               No           Yes         Yes        Yes            Yes          Yes         $483,569
     5108                                              competition
     M67854-10-D-                                     Full and open
                            Contract       FFP                               No           Yes         Yes        Yes            Yes          Yes         $250,000
     5109                                              competition

                                                                     F-18 Engine Efficiency Improvements
     N00019-09-G-
     0009                     Order       CPFF         Sole Source          Yes           Yes         Yes        Yes            Yes          Yes        $7,500,000
     (order 0005)
     N00019-09-G-
     0009-0005-01         Modification    CPFF         Sole Source          Yes           Yes         Yes        Yes            Yes          Yes        $7,500,000
29




                                                              Aircraft Energy Conservation RDTE Program

     F34601-03-D-
                          Modification    CPFF         Sole source          Yes           No          Yes        Yes            No           Yes         $228,104
     0006-0007-04

                                                    Hybrid Electric Drive System Development for Surface Combatants
                                                     Full and open
                                                      competition
     N00024-09-C-4222       Contract      CPFF                               No           Yes         Yes        Yes            Yes          Yes       $13,000,000
                                                     after exclusion
                                                        of sources
     N00024-08-C-4201                                 Full and open
                          Modification    CPFF                              Yes           Yes         Yes        Yes            Yes          Yes         $100,000
     (P00011)                                          competition
                                                     Full and open
     N65540-08-D-                                     competition
                          Modification    CPFF                              Yes           Yes         No         Yes            Yes          Yes         $100,000
     0009-0007-02                                    after exclusion
                                                        of sources

     FFP    firm-fixed-price
     CPFF   cost-plus-fixed-fee
                                                                                                                Posted       Included
                                                                          Use of        Posted      Posted                                Included
                                                                                                              Adequate     Appropriate                Contract
                              Contract     Contract     Source          Previously       Pre-       Award                                 Contract
       Project/Contract                                                                                        Project     Recovery Act                Action
                               Action       Type       Procedure        Awarded      solicitation     in                                  Action in
           Number                                                                                            Description    Clauses in                Amount
                                                                        Contracts      in FBO        FBO                                   FPDS
                                                                                                               in FBO      the Contract
                                                      Full and open
       N65540-08-D-                                    competition
                            Modification    CPFF                           Yes           Yes         Yes        Yes            Yes          Yes         $80,000
       0009-0007-05                                   after exclusion
                                                         of sources
                                                      Full and open
       N0024-07-C-4008                                 competition
                            Modification    CPFF                           Yes           Yes         Yes        Yes            Yes          Yes        $299,994
       (P00012)                                       after exclusion
                                                         of sources
       N00024-07-C-4213                               Full and open
                            Modification    CPFF                           Yes           Yes         Yes        Yes            Yes          Yes        $800,000
       (P00006)                                        competition
       N00024-07-C-4217                               Full and open
                            Modification    CPFF                           Yes           Yes         Yes        Yes            Yes          Yes        $800,000
       (P00030)                                        competition
       N00024-07-C-4222                               Full and open
                            Modification    CPFF                           Yes           Yes         Yes        Yes            Yes          Yes        $500,000
       (P00002)                                        competition
30 





       N00024-08-C-4212                               Full and open
                            Modification    CPFF                           Yes           Yes         Yes        Yes            Yes          Yes        $800,000
       (P00002)                                        competition
       N00024-08-C-4203
                            Modification    CPFF       Sole source         Yes          Yes          Yes        Yes            Yes          Yes        $300,000
       (P00003)
       N00178-04-D-                                   Full and open
                            Modification    CPFF                           Yes           Yes         Yes        Yes            No           Yes        $350,000
       4089 EHP1 43                                    competition
       N00178-04-D-                                   Full and open
                            Modification    CPFF                           Yes           Yes         Yes        Yes            Yes          Yes        $200,000
       4089 EHP1 48                                    competition
       N00178-04-D-                                   Full and open
                            Modification    CPFF                           Yes           Yes         Yes        Yes            Yes          Yes         $46,000
       4077 FD02 14                                    competition
       N00178-04-D-                                   Full and open
                            Modification    CPFF                           Yes           Yes         Yes        Yes            Yes          Yes        $254,000
       4077 FD02 21                                    competition


       FFP    firm-fixed-price
       CPFF   cost-plus-fixed-fee
                                                                                                                             Included
                                                                                                                 Posted
                                                                           Use of        Posted      Posted                 Appropriate   Included
                                                                                                               Adequate                              Contract
      Project/Contract       Contract     Contract     Source            Previously       Pre-       Award                   Recovery     Contract
                                                                                                                Project                               Action
          Number              Action       Type       Procedure          Awarded      solicitation     in                   Act Clauses    Action
                                                                                                              Description                            Amount
                                                                         Contracts      in FBO        FBO                      in the     in FPDS
                                                                                                                in FBO
                                                                                                                             Contract
                                                                  Advanced High Energy HVAC System
                                                     Full and open
      N65540-06-D-
                                                      competition
      0021                     Order       CPFF                             Yes           Yes         Yes        Yes           Yes          Yes      $2,234,000
                                                     after exclusion
      (order 0008)
                                                        of sources
                                                                       Navy Shipboard Energy Program

      N00178-04-D-                                   Full and open
                           Modification    CPFF                             Yes           Yes         Yes        Yes           Yes          Yes        $250,000
      4110 FD02 11                                    competition

      N00178-04-D-
                                                     Full and open
      4030 FD03                                                             Yes           No          Yes        Yes           Yes          Yes         $30,000
                           Modification    CPFF       competition
31





      (P00041)


                                                              Improved Environmental Control Equipment

      M67854-08-A-
                                                     Full and open
      5051                     Order        FFP                             Yes           No           No         No            No          Yes        $247,637
                                                      competition
      (order 0004)


      FFP    firm-fixed-price
      CPFF   cost-plus-fixed-fee
                                                                                                                    Posted       Included
                                                                           Use of         Posted      Posted                                  Included
                                                                                                                  Adequate     Appropriate                Contract
                            Contract      Contract       Source          Previously        Pre-       Award                                   Contract
       Project/Contract                                                                                            Project     Recovery Act                Action
                             Action        Type         Procedure        Awarded       solicitation     in                                    Action in
           Number                                                                                                Description    Clauses in                Amount
                                                                         Contracts       in FBO        FBO                                     FPDS
                                                                                                                   in FBO      the Contract
       M67854-08-A-
       5023                   Order         FFP         Sole source         Yes            No          No            No            No           Yes        $352,046
       (order 0009)
       M67854-09-C-
                             Contract       FFP         Sole source         No             Yes         Yes           Yes           No           Yes       $1,450,420
       5113*
                                                       Full and open
       M67854-07-D-
                                                        competition
       5115                   Order         FFP                             Yes           Yes          Yes           Yes           No           Yes        $698,950
                                                       after exclusion
       (order 0013)
                                                          of sources
       M67854-10-D-
       5037                   Order         FFP         Sole source         Yes            Yes         Yes           Yes           Yes          Yes        $394,000
       (order 0001)
                                                                   Ocean and Wave Energy Utilization-OTEC
32 





       N62583-09-C-                                    Full and open
                             Contract       FFP                             No            Yes          Yes           Yes           Yes          Yes       $8,119,625
       0083                                             competition

                                                              Alternative Test Fuel and Cert Protocol Acceleration
       N00019-09-G-
       0009                   Order         CPFF        Sole source         Yes            Yes         Yes           Yes           Yes          Yes       $1,946,351
       (order 0006)
       N00019-05-G-
       0026                   Order         FFP         Sole source         Yes            Yes         Yes           Yes           Yes          Yes        $455,290
       (order 0202)
       SP0600-09-D-                                    Full and open
                             Contract       FFP                             No             Yes         Yes           Yes           Yes          Yes       $1,900,000
       0519                                             competition
       N68335-10-C-
                             Contract       CPFF        Sole source         No             Yes         Yes           Yes           No           Yes        $254,594
       0239
       N62473-07-D-
                                                       Full and open
       4006                   Order         FFP                             Yes            Yes         Yes           Yes           Yes          Yes         $98,348
                                                        competition
       (P00017)

       *Contract action M67854-09-C-5113 was modified to contract action M67854-10-C-5113 on January 11, 2010.
       FFP     firm-fixed-price
       CPFF cost-plus-fixed-fee
                                                                                                                              Included
                                                                                                                  Posted
                                                                            Use of        Posted      Posted                 Appropriate   Included
                                                                                                                Adequate                              Contract
       Project/Contract        Contract      Contract     Source          Previously       Pre-       Award                   Recovery     Contract
                                                                                                                 Project                               Action
           Number               Action        Type       Procedure        Awarded      solicitation     in                   Act Clauses    Action
                                                                                                               Description                            Amount
                                                                          Contracts      in FBO        FBO                      in the     in FPDS
                                                                                                                 in FBO
                                                                                                                              Contract
                                                                          Plasma Fusion (Polywell)

       N68936-09-C-0125         Contract      CPFF       Sole source         No           Yes          Yes        Yes           Yes          Yes
                                                                                                                                                       $1,272,826
                                                                Integrated Generator/ Environmental Control
                                                        Full and open
       M67854-06-C-
                                                         competition
       5062                   Modification    CPFF                           Yes           Yes         No         Yes            No          Yes       $2,185,433
                                                        after exclusion
       (P00006)
                                                          of sources

        Yes/No Totals                                                        27/8         31/4         31/4       33/2          27/8         35
33 





        Total                                                                                                                                         $55,481,187


       FFP      firm-fixed-price
       CPFF     cost-plus-fixed-fee
Department of the Navy Comments




                                                                                                         Final Report 

                                                                                                          Reference




                                  DEPARTMENT OF THE NAVY
                                OFFICE OF THE ASSIS T ANT SECRETARV
                            ( RES[AR CH . D E VELO PMENT AND ACOUISI T IO N )
                                          1 000 NAVV PENTAGON
                                                                                   April 1, 2011
                                     WASH ING T ON DC 20350· 1 000



      MEMORANDUM FOR PROGRAM DIRECTOR, ACQUISITION AND CONTRACT
                       MANAGEM ENT

      SUBJECT: American Recovery and Reinvestment Act - Department of the Navy Near
               Term Energy-Efficient Technologies Projects (Draft Audit Report Project
               No. D2009-DOOOAB-0 170.002)

           The attached Department of the Navy comments are provided in response to your
      memorandum dated February 15,20 11.

             The Deputy Assistant Secretary of the Navy for Acquisition and Logistics
      Management comments in response to recommendations l .a and I.b for the Assista nt
      Secretary of the Navy (Research, Development and Acquisition) is attached. The
      responses to recommendations 2.a and 2.b for the Commander, Naval Air Systems                    Deleted
      Command and recommendation 3 for the Commander. Naval Air Warfare Center,                        Renumbered as
      Aircraft Di vision, are provided in the attached NAVAIR memorandum dated                         Recommendation 2
      March 9, 2011. The responses to recommendation 4 for the Commander, Naval Surface                Deleted
      Warfare Center, Carderock Division-Maryland and recommendations 5.a and 5.b for the
                                Click to add JPEG file                                                 Renumbered as
      Commander, Naval Surface Warfare Center, Carderock Division-S hip System
      Engineering Station, are provided in the aUached Naval Sea Systems Command
                                                                                                       Recommendation
      memorandum dated March 21 , 2011. Finally, recommended technical edits and                       3.a and 3.b
      responses to recommendations 6.a and 6.b for the Commander, Marine Corps Systems                 Renumbered as
      Co mmand (MARCORSYSCOM) are provided in the attached MAR CORSYSCOM                               Recommendation
      memorandum dated March 24, 201 t . We believe that all of the responses meet the intent          4.a and 4.b
      of the applicable recommendations.

                                                                                He can be reached at



                                                 U:C:';oK       ~ . ~~
                                                 Elliott B. Branch
                                                 Executive Director
                                                 DASN(A&LM)



      Attachment:
      As stated




                                                                34
               DEPUTY ASSISTANT SECRETARY OF THE NAVY
            (ACQUISITION & LOGISTICS MANAGEMENT) RESPONSE

                                             TO

     DODIG DRAFT AUDIT REPORT ON AMERICAN RECOVERY AND
     REINVESTMENT ACT· DEPARTMENT OF THE NAVY NEAR TERM
           ENERGY·EFFICIENT TECHNOLOGIES PROJECTS

                       (PROJECT NO. D2009.DOOOAB.OI70.002)

RECOMMENDATION 1. a.: We recommend that the Assistant Secretary of the Navy
(Research, Development, and Acquisition) direct contracting offices to:

      3.   Post presolicitation and award notices to the required public Web sites for
Recovery Act work.

DASN (A&LM) RESPONSE: Concur. During the period that the audit was being
conducted, DAS N(A&LM) completed action required by this recommendati on by issuing
a total of four memorandums which specificall y directed Navy and Marine Corps
contracting offices, that had contract actions funded in whole or in part by Recovery Act
                             Click to add JPEG file
funds, to comply with ~andatory DoD instructions and implementation guidance
published by the Office of Management and Budget. DAS N (A&LM ) memorandums
were issued on March 25. 2009, May 22,2009. Jul y 14. 2009. and
August 25, 2009. These four memorandums addressed the req uirements for posting
presolicitation and award notices. exercisin"g proper oversight in tracking Recovery Act
funds, requirements for publicizi ng the award notices for actions awarded using non­
competiti ve procedures and those resulting in other than a fixed-price type contract,
inclusion of required Recovery Act FAR clauses, and the use of clear and concise
language to describe planned procurements.

RECMMENDA TION I.b: We recommend th at the Assistant Secretary of the Navy
(Research, Development, and Acquisiti on) direct contracting offices to:

       b. Include appropriate descriptions of the Recovery Act work to be performed in
public postings, full justification for solicitation or awards that are not fixed-price or
subject to full and open competition in public postings, and all appropriate Recovery Act
Federal Acquisi tion Regul ation clauses for contract actions.

DASN (A&LM) RESPONSE: Concur. See the response under Recommendation I.a.
above.




                                                         35
                                       OEPARTMENT OF THE NAVY
                                          ~VAl.   AIR SYSTEMS COMMAND
                                        RAOM WLUAM A. MOfFETT lIUlLDING
                                          471 23 BUSE ROAD. SLOG 2272
                                      PATUXENT RrvER, MARYlAND 20e70-;~7

                                                                                         4200
                                                                                         Su AIR-2. 1.I.lI019-11

                                                                                          MAR     9 1011
MEMORANDUM

From: AIR-2.0
To:   AIR-OOG

Subj: NAVAIR RESPONSE TO OODIG DRAFT REPORT ENTITLED "AMERICAN
      RECOVERY AND REINVESTMENT ACT ­ DEPARTMENT OF THE NAVY NEAR
      TERM ENERGY-EFFICIENT TECHNOLOGIES PROJECTS" (D2009-DOOOAB-OI70.002)

Ref:   (8) AIR-OOG Email of 18 Feb 11 Forwarding Draft Report for Review and Comment

Encl: (I) AIR-2.0 Response to DODIG Draft Audit Report Entitled "American Recovery and
          Reinvestment Act - Oeparbnenl ofthc Navy Near Term Energy-Efficient Technologies
          Projects."

                            Click to add JPEG file
1. As requested by reference (a), AIR 2.0 has reviewed the subject draft audit report. Enclosure (1)
contains the comments which resulted fr!101 this review. In addition, the report does not contain
information deemed to be exempt from release under FOlA.


                                             ~
                                             1. T. PALMER
                                                    CAPT, SC, USN
                                                    Deputy Assistant Commander
                                                    for Contracts




                                                             36
                                                                                                           Final Report 

                                                                                                            Reference






              DEPARTMENT OF THE NAVY RESPONSE TO
                      DODiG DRAFT REPORT ON
            AMERICAN RECOVERY AND REINVESTMENT ACT-
    DON NAVY NEAR TERM ENERGY-EFFICIENT TECHNOLOGIES PROJECTS
                PROJECT NUMBER D2009-DOOOAB-0170-002


Finding: DON properly justified and adequately planned and funded 11 Recovery Act NTEET                  Revised
projects. However. the Navy, Marine Corps. and the Air Force could have improved initial
execution of projects by:

    •   Properly posting pre-solicitation or award notices for 8 contract act ions on the FBO Web
        site,
    •   Including required fAR Recovery Act contract clauses in 8 contract actions,
    •   Describing the work to be pc:rfonned for 2 contract actions on the FBO Web site. and
    •   Entering I contract action in the FPDS.

The Navy. Marine Corps. and Air Force did not post pre-solicitations or award nOlices. and did
not include required FAR Recovery Act clauses in the contract actins. or describe tbe work to be
performed in the pre-solicitations or award notices posted on the FBO web site because
contracting officials modified previously negotiated non-Recovery Act contract actions and were
unaware that Recovery Act funds required the clauses. Inclusion of all applicabJe Recovery Act
clauses in contract actions infonns contractors about reponing requirements and promotes
compl iance. All a result, DON did not achieve transparency in all its Recovery Act actions,
which was a primary objective of the Recovery Act.

NAVAJR Comments: Do not concur withfoun h bulle. o/finding "Entering / contract actio"
in the FPDS". Plell:Je u e respome co recommendation 2b below and tllIached copy o/ che                  Deleted
Contracl Actioll Report (CAR) jor NOOO/9-09-G-0009'(){)()5-0J from FPDS-NG.

Recommendation 2: Conunander. Naval Air Systems Command, direct the posting of:

        a. ' lnformation for contract action NOOO19-09-G-0009 {DO 0006} to include full                  Deleted
            ju.'itification for awards that are not flxed-price in federa l Business Opportunities and
           other required Web sites ,

        b. Contract action NOOOJ9-09-G'()()()5-OI to the Federal Procurement Data System.                Deleted
NA V AIR Commcnl.. : Do "ot collcur.
      a. Please see rile a1lached previously posted copies of the pre-tlward {UJd award norke.
          Both a/the flo/ices were posted to Federal Business Oppommities (Lr required by                Not included
          FAR Part 5: the pre-award sYllopsis was posted 09 April 2009 and pos,-award                    due to length
         ."Ylwpsj,f wetS posted 29 May 2009. The pre-award SYMp:ris includes tI sUltemellt
         uddressjr/8 the reason for awarding the order as cos, plus fued fee.
                                                                                                         Not included
      b. Please ;;W!t! the auaehed eopy o/llie Commel Acrion Report (CAR)/or NOOOJ9-09-G-
         0009-()()()5-01. from 'he Federal Procurement Data SystenL This contmct action                  due to length




                                                               37
                                                                                                     Final Report 

                                                                                                      Reference






           report was prepared 12 May 2009, Ihe Sf/nlt day thal lhe modificoliOlI W(lS signed by
           the Con/meting Offu:er.


Recommendation 3: Commander, Naval Air Warfare Center, Aircraft Division direct the
posting of contract action N6833S-10-C-0239to include all required Recovery Act clauses.
                                                                                                   Renumbered as
                                                                                                   Recommendation 2
NAVAIR Comments: Partially Concur. Contract N68335·1O·C·0239 does include the required
FAR clnuse 52.204- t 1 Americnn Recovery and Reinvestmem Act - ReporLing Requirements.
Concur that two other clauses Dre [CQuired and will be incorporated into the COOlesc! by
modification. TIle two FAR clauses to be il1corpo.rated into the contract are 52.203-15
WhistJeblower PrOiections Under the American Recovery and Reinvestment Act of 2009 and
52.215-2 Alt I Audit and Records - Negotiation. It is anticipated that the modification to
illCQrporate 52.203- 15 and 52.215-2 All I will be executed no later than 31 March 2011.




                                              2




                                                           38
                        DEPARTMENT OF THE NAVY
                             NAVAL SEA SYSTEMS COMMAHO
                                un ISAAC HUll AVE 8E
                          WASHINGTON HAVY YARD DC 2037«)001            IN REPLY TO

                                                              7500
                                                              Ser OON3 S/032
                                                              21 liar 11

From:     Commander, Naval Sea Systems Command
To :      Assiseant Secretary of the Navy, (Research, Devel opment &
          Acquisition ) Acquisition & Logistics Management

Subj'     DOnIG DRAFT AUDIT REPORT - AMERICAN RECOVERY AND
          REINVESTMENT ACT - DEPARTMENT OF THB NAVY NEAR TERM
          ENERGY EFFICIENT TECHNOLOGIES PROJECTS (D2009-0170.002)

Enel:     ( 1 ) NAVSEA Response to the Subj ect DODIG Draft Report

1.     Enclosure (1) is NAVSEA 's response to the subject draft
audit report prepared in the require d DON format.

_ For additional.ii
:2.          or .n.f.o.rln.a.t.ioiiiil
                                  n

                     Click to add JPEG file
Copy to:
OASN    (FMO-l)
NSWC HQ




                                                     39
                                                                            Final Report 

                                                                             Reference






                   DEPARTMENT OF TAB NAVY RESPONSB
                                         TO
  DODIG DRAFT REPORT ON AMERICAN RBCOVBRY AND REINVBSTMENT
   ACT-DBPARTMENT OF THE NAVY NEAR TERM ENERGY EFFICIENT
                    TBCHNOLOGIES PROJBCTS
                (Project' No. D2009-DOOOAB-017 0 . 002)

DODIG Audi t Re commendati on 4:

We recommend that the Commander, Naval Surface Warfare
Center, Carderock Division-Maryland, direct the posting of                Deleted 

the pre solicitation notice for contract action
N00178-04-D -4 030 FD03    (P0004 1 ) .

DON Response:
Do not concur. Although, a presolicitat ion notice was not
issued fo r modification P00041, d~ted 17 Jun 2009, due to
initial misunderstanding of posting requirements, the
posting of a pre-solicitation notice is no l onger requ ired
per DOD memo dated 19 March 2010 "Revised posting and
Reporting Requirements for the Ame r ican Recovery and
Reinvestment Act of 2009 (Recovery Act).N
All subsequent p osting and reporting required actions were
completed for modif icati on P00041. The contractor submitted
a ~Finaln report in CY10 Q3 after a number of quarterly
repor ting cycles . Therefore , there would be no additional
benefit to the public in P9sting a pre - solicitation notice
for modification P00041 . Mo r eover, posting a pre­
solicitation notice after the cont r act has been awarded,
when there is no prospective requirement and no prospective
opportunity to submit a proposal, would only cause
confusion .




                                     1
                                                          Enclosure (1)




                                              40
                                                                             Final Report 

                                                                              Reference






                   DEPARTMENT eF THE NAVY RESPONSE
                                   TO
     DODIG DRAFT REPeaT ON AMERICAN RECOVERY AND REINVESTMENT
      ACT-DEPARTMEN"l' OF THE NAVY NEAR TERM ENERGY EFFICIENT
                        TECHNOLOGIES PROJECTS
                 (Projeot No . D2009- DOOOAB-0170 . 002)


DODIG Recommendation 5a:

We recommend th at the Commander, Naval Surface Warfare Center ,           Revised and
Carderock Division-Ship Systems Engineering Station direct the             renumbered as
posting of award notice for contract action N65540-08-0 - 0009 -
0007-02 .                                                                  Recommendation
                                                                           3.a
DON Response :

Do Not Concur . Award notice for co nt ract action N65540-080D-
0009-00007-02 was initially posted to Navy Electronic Commerce
Online (NEeO), as required per Navy guidance, on 03 February
2010 .

                   Click to add JPEG file
https : ll/www. n eco . navy.mil/synopsis/detail.aspx?id~25185 2

Althoug h Federal Business Opportunities (FedBiz) does not seem
to show the Award notice from NEeO, the error is a sys'tem error
with NEeO and not a procedural error with NSwe, earderock .

Subsequent contract modifications were successfully transferred
from NEeo to FedBiz .

https://www . fbo.qov/?s=opportunity&mode - form&id-2cf87dd675851b77
562a2035d686a77 f&taba:core&c,v iew 1

All subsequent posting and reporting required actions were
completed for modification 02 . The contractor submitted ' a
"Final" report in CYIQ 04 after a number of quarterly reporting
cycles




                                                           Enclosure (1)




                                           41
                                                                     Final Report 

                                                                      Reference






                DEPARTMENT OP THE NAVY RESPONSB
                               TO
  DODIG DRAFT REPORT ON AMERICAN RECOVERY AND REINVESTMENT
   ACT-DEPARTMENT OF THE NAVY NEAR TERM ENERGY EPFICIENT
                    TBCHNOLOGIBS PROJECTS
             (Project No. D2009-DOOOAB-0170.002)


DODIG Audit Recommendation Sb:

We recommend that the Commander, Naval Surface Warfare             Revised and
Center, Carderock Division-Ship Systems Engineer ing Station       renumbered as
direct the modification of contract action N00178-04-D-4089        Recommendation
EHPl 43 to include all r equi red Recovery Act c l auses .
                                                                   3.b
DON Respons.:
Concur. Although the clause tit l es are not specifically
stated in the subject modification, t he text of the
modifi cation states t hat FAR Clauses 52.203-15 and 52.244-6
were incorporated in Section I of t hi s task o r der by
refere nce a nd PAR Clause 52 .204- 11 was erroneously
incorporated by fu l l text. An administrative modification
shal l be issued to clearly state the ·clause titles of the
three (3) af oremention ed cl a uses and incorporate FAR Clause
52 . 204- 11 by r eference i n8 t ea~ of full text.
Act i on completed on 18 Feb 11.   Pertinent documents attached.




                                                  Enclosure (1 )




                                       42
                           DEPARTMENT OF THE NAVY
                      HEAOQUAATERS UNITED STAT£S MARINE CORPS
                            3000 MARINE CORPS PENTAQON
                              WASHINGTON. DC 20350-3000            I'II'IfPLTIII£FER 10:
                                                                  7500
                                                                  RFR- 80
                                                                  ~ Mar 11

From:   Commandant of the Marine Corps
To:     Deputy Assistant secretary of the Navy, Acquisition and
          Logistics Management

SUbj:   COMMANDANT OF THE MARINE CORPS (CMC) OFFICIAL RESPONSE
        TO DEPARTMENT OF DEFENSE OFFICE OF INSPECTOR GENERAL
         (DODIG) DRAFT REPORT D2009-0000AB-0170.002, "AMERICAN
        RECOVERY AND REINVESTMENT ACT - DEPARTMENT OF THE NAVY
        NEAR TERM ENERGY-EFFICIENT TECHNOLOGIES PROJECTS , " DATED
        FEBRUARY 15 , 2011

Ref :   (a)   OODIG memo of Februa r y 15, 2011

Enc1:   (1) CMC Official Responses

1 . Official responses required by the reference are provided at
the enclosure .
                    Click to add JPEG file
2. Enclosure (1) was coordinated with Headquarters, U. S .
Marine Corps, Programs and Resources Department and Marine Corps
Systems Command.

3.  The Marine Corps appreciates the opportunit y to respond to
the report.

4.  If you                                    the responses, please
contact .
Senior Audit                          •lIillIlIlIlIlI.U
                                                      I i". S'orMarine
                                                                 phone     Corps




                                    ca:~::R
                                      Deputy Commandant
                                      for Programs and Resources


Copy to :
NAVINSGEN (N4)
DMCS




                                                  43
                                                                               Final Report 

                                                                                Reference






                         UNITED STATES MARINE CORPS
                           ....... COfIIasm-COfI8,WD
                                   " " LImO IT
                            Q.II.Nnoo, WlGNA221M401O

                                                       DFM
                                                       11 March 11


Prom :   Commander, Marine Corps Systems Command
To :     Deputy Commandant for Programs and Resources, Fiscal
         Division Audit and Review Branch

Subj:    COMMENTS ON OODIG DRAFT REPORT DATED 15 PEBRUARY 2011
         PROJECT NUMBER D2009-DOOOAB-0170.002 -AMERICAN RECOVERY
         AND REINVESTMENT ACT - nEPARTMBNT OP THE NAVY NEAR TERM
         ENERGY - EFPICIENT TECHNOLOGIES PROJECTS·

Encl:    (1) DODIG DRAFT REPORT DATED 15 PEBRUARY 2011
             PROJECT NUMBER D2009-DOOOAB-0170.002 -AMERICAN
             RBCOVERY AND REINVESTMENT ACT - DEPARTMENT OF THE
             NAVY NEAR TERM ENERGY - EFFICIENT TECHNOLOGIES
             PROJECTS·
1. The subject DODIG Draft Report (enclosure (1» va. reviewed
                  Click to add JPEG file
for technical accuracy. USMC comments are provided below.

     a. Recommend that the sentence on page 12 -Direct the
modification of contract actione M67854-08-A-S051 (order 0009),              Revised, page 15 

M67854 -08-A-S023 (order 0004), M678S4-07-0 - 511S (order 0013),
M67854-09-C-S113, and M67854-06-C-5062 (POODOS) to include all
required Recovery Act clauses· be replaced with ~Direc t the
modification of contract actions M67954-08-A-5051 (order 0004),
M67854-08-A-5023 (order 0009), M67854-01-D-SllS (order 0013),
M678S4-09-C-S113, and M678S4-06-C-5062 (P00006) to include all
required Recovery Act clauses·.

     b. Recommend that the sentence on page 19 -MARCORSYSCOM                 Page 23 

awarded two contract actions under this project for a total of
$133,569· be replaced with -MARCORSYSOOH awarded two contract
actions under this project for a total of $3 . 9 million H •

     c. Recommend that the Bentence on page 20 -MARCORSYSCOM                 Revised, page 24 

issued four contract actions, valued at $2.7 million, for this
project· be replaced with -MARCORSYSCOM issued six contract
actions , valued at $3.4 million. for this project·.

     d. Recot't'lmend that the .entence on page 22 "'MARCORSYSCOM            Page 26
awarded one contract action , valued at $2.2 million, for this
project H be replaced with -MARCORSYSCOM awa rded two contract
actions, valued at $2.4 million, for this project·.


                                                              En e l   (1)




                                                44
                                                                                 Final Report 

                                                                                  Reference






Subj:    COMMENTS ON DODIG DRAFT REPORT DATED 15 FEBRUARY 2011
         PROJECT NUMBER D2009-DOOOAB-0170 . 002 ~AMERlCAN RECOVERY
         AND RBINVBSD'lBNT ACT - DBPARTMENT OP THE NAVY NEAR TERM
         ENERGY - BFFICIENT TECHNOLOGIES PROJECTSN

2. The findings and recommendations in the subject DOOIG Draft
Report (enclosure (l}l were reviewed. The USMC response to the
recommendations and the status of requested actions is provided
below .

      a . Review of Internal Controls :   We identified an internal            Revised
control weakness in DON's posting of solicitation and award
notices for NTEET program contract actions. The Commanders
Naval Air Systems Command (NAVAIR)i Naval Surface Warfare
Center, Carderock Division-Headquarters (NSWCCO!HO); Naval
Surface Warfare Center, Carderock Division- Ships System
Engineering Station (NSWCCO!SSES ) ; and Marine Corps Systems
Command (MARCORSYSCOM) should better facilitate the tran.parency
of contract actions awarded under the Recovery Act and posted on
Government Web si ~ e8 by impl ementing Recommendation. 2 .• , 2 . b,
3, 4, 5 .a, 6.a, and 7.a , respectively. The Commanders,
MAROORSYSOOM and Air Porce Materiel Command (APHC) , should
better facilitate the inclusion o f required Recovery Act FAR
clauses in DON NTEET contracts by implementing Recommendations
S . b, G. b , and 7.b , respectively.

USMC Re8pon8e: Concur. The internal control weakness
identified on page 5 of enclosure (l) will also be officially
addressed in the Marine Corps Systems Command 2011 Overall
Managers Internal Control program .

    b . Recommendation 6.a : We recommend that the Commander,                  Renumbered as
Marine Corps Systems Command direct the posting of:                            Recommendation
       (1) Award notices for contract actionB M67954~08-A-5 0 51               4.a
(order 0004), M67854- 0 8 ~ A-5023 (order 0009), and M67854- 0 6 - C~
5062 (P00006) .

         (2) Pre- solicitation notices for contract actione M67854-
08~A -5 051  (order 0004), M67854 ~ 08~A~5023 (order 0009).

       (3) Appropriate descriptions to contract actions M67854-
08-A~5051  (order 0004), and M67854-08-A-S023 (order 0009 ) of the
Recovery Act work to be performed in Federal Business
Opportunities and other required Web sites.




                                   2
                                                                Enel    ( 1)




                                          45
                                                                            Final Report 

                                                                             Reference






   Subj,     COMMENTS ON DODIO DRAFT REPORT DATED 15 FEBRUARY 2011
             PROJECT NUMBER D2009-DOOOAB-0170.002 - AMERICAN
             RECOVERY AND REINVES'l'KENT ACT - DEPARTMENT OP THE NAVY
             NEAR TERM ENERGY - EFFICIENT TECHNOLOGIBS PROJBCTS~

USMC Response: Concur. Recommendations (1) and (2) will be
completed by 9 April 11. Recommendation (3) was completed on
5 August 09.

       c.   Recommecdation s.b!   We recommend that the Commander,        Revised and
Marine Corps Systems Command:                                             renumbered as
                                                                          Recommendation
        (l) Direct the modification of contract actiocs M67854-
08-A-5051 (order 0009) , M67854-08-A-5023 (order 0004), M67854-           4.b
07-0-5115 (order 0013), M678S4-09-C-S113, and M67854-06-C-S062
(P00006) to include all required Recovery Act clauses .

USMC Response:     Concur .   These actions were completed in October
09 .




                                    3
                                                              Enel (1 )




                                           46
Department of the Air Force Comments

                                                                                                           Final Report
                                                                                                            Reference



                             DEPARTMENT OF THE AIR FORCE
                                    HEAOOl.ARTERS AIR FOR:::E MATERIEL COMMANO
                                      WRIGMT-PATTEliSON A R FORCE 8ASE. OHIO




                                                                                            17 Mar II
      MEMORANDUM FOR DODIIG

      FROM: AFMCIPK
              4375 Chidlaw Road
              Wright-Patterson AFB OH 45433 -5001

      SUBJ ECT: Draft Report on the American Recovery and Reinvestment Act--Department of the
                Navy Ncar Tcnn Energy-Efficient Tcclmologics Projects

      References:   (a) • • • • • • e-mail, same subject, dated 15 Feb 11

                    (b) Draft Report on the An'lerican Recovery and Reinvestment Act--Department
                    of the Navy l\ear Term Energy-Efficient Technologies Projects dated 15 Feb II


      1. In accordance with reterence (a), AFMC respectfully submit<; the following response to the
                                    Click to add JPEG file
      DoD IG' s draft recommendations on page 12, paragraph 7, of reference (b):

      We recommend Ihat the Commander. Air Force Materiel Command:                                       Revised and
       a. Direcr the posting ofpreso/icilalion notice/or contract action F34601 -03-D-0006-0007-04.
       h_ Direct/he mndifica/i(}n 0/ erm/rac! action F34601-03-D-0006-(){)07-04 to include all
                                                                                                         renumbered as
          required RecowlY Aa c1auses_                                                                   Recommendation 5

      Response : At the time of the receipt of the Military Interdepartmental Purchase Request the
      Contracting Ofticer (CO) was not aware that American Recovery and Reinvestment Act (ARRA)
      funding was being utilized. Therefore the CO di d not comply with the Recovery Act reporting
      requirements and omitted the pertinent Recovery Act clauses with the issuance ofLhe orJt.'f. The
      CO has sinee been made aware of the various Recovery Act tenns that may identify MJPR' s and
      PR's as being ARRA funded. The order has been completed; therefore AFMC is unable to
      comply with the two draft recommendations. In the future AFMC will strive to ensure COs are
      aware of special reporting requirements and special clauses before issuance of solicitations.

                                                    related efforts to • • • • ' I-IQ AFMCIPKQP,



                                                           ~'---~--::?---
                                                         THOMAS J SNYDER, Col, USAF
                                                         Deputy Director of Contracting

      cc:
      SAF/AQCK

                               War-whining    cflpnbiJitie-,~   .. . on time, on cost




                                                                         47
THIS PAGE INTENTIONALLY LEFT BLANK 

THIS PAGE INTENTIONALLY LEFT BLANK 

